December 22, 2009

DEBORAH M. GIANNONI-JACKSON
VICE PRESIDENT, EMPLOYEE RESOURCE MANAGEMENT

SUBJECT: Management Advisory – Saved Grade Status and Temporary Assignments
         – Postal Service Headquarters (Report Number HM-MA-10-001)

This report presents the results of our self-initiated review of saved grade status and
temporary assignments in the Postal Service (Project Number 09YG025HM000). The
objective was to determine if management properly assigned headquarters bargaining
and nonbargaining unit employees to saved grade status (including indefinite protected
salary) and temporary assignments from October 1, 2007 through April 24, 2009. This
review addresses the U.S. Postal Service Office of Inspector General’s (OIG) financial
risk factor. See Appendix A for additional information about this review. We anticipate
additional audit work in field offices based on this survey.

Conclusion

Postal Service Headquarters managers, supervisors, and Shared Services Center
personnel complied with Postal Service policies and procedures when they placed and
monitored employees on saved grade status, including those on indefinite protected
salary. As a result, we did not identify any improper assignments. In addition,
headquarters managers and supervisors generally followed policies and procedures
when they completed and retained appropriate documentation for temporary
assignments. However, we identified 40 assignments that were not sufficiently
supported, resulting in a projected unrecoverable, unsupported questioned cost totaling
$67,629.1 This occurred because headquarters managers and supervisors did not
always complete and maintain Postal Service (PS) Forms 1723, Assignment Orders.
See Appendix B for a detailed analysis of this topic.




1
  Unrecoverable questioned costs are unnecessary, unreasonable or the result of an alleged violation of law or
regulation or contract. These costs are also not supported by adequate documentation.
Saved Grade Status and Temporary Assignments -
 Postal Service Headquarters                                               HM-MA-09-001


We recommend the vice president, Employee Resource Management:

1. Remind headquarters managers and supervisors of their responsibility to complete
   and maintain Postal Service Forms 1723, Assignment Orders, to support all
   temporary assignments.

2. Consider the feasibility of automating Postal Service Forms 1723, Assignment
   Orders, to manage and track temporary assignments.

Management’s Comments

Management agreed with our findings and recommendations. Management stated it
sent an October 28, 2009, memorandum to all officers reviewing policy on the PS Form
1723, stressing the importance of maintaining paperwork related to temporary
assignments. In addition, management will explore options for automating several
Human Resources-related forms, including PS Form 1723. See Appendix D for
management’s comments, in their entirety, and Appendix E for the memorandum.

Evaluation of Management’s Comments

The OIG considsers management’s comments responsive to the recommendations, and
its corrective actions should address the issues identified in the report.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Andrea Deadwyler, director,
Human Resources and Security, or me at (703) 248-2100.

      E-Signed by Mark Duda
 VERIFY authenticity with ApproveIt




Mark W. Duda
Deputy Assistant Inspector General
 for Support Operations

Attachment

cc: Anthony J. Vegliante
    Sally K. Haring




                                                 2
Saved Grade Status and Temporary Assignments -
 Postal Service Headquarters                                                                      HM-MA-09-001


                           APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

Postal Service policy defines saved grade status as when an employee’s salary is equal
to the salary of a previously held grade (normally a higher grade). Indefinite protected
salary is when an employee’s salary is higher than the salary range of an occupied
lower-level position and the employee retains the current salary for as long as the
lower-level position is occupied.2

National and local employee union agreements govern the length of time bargaining
employees can remain in a saved grade status or receive indefinite protected salary.
Postal Service policy states that nonbargaining employees retain their current grade
and salary for 2 years from the effective date of the change to the lower-level position.
Once the 2-year period expires, the employee receives indefinite protected salary.
Postal Service policy also requires that saved grade and indefinite protected salary
actions be supported by a PS Form 50, Notification of Personnel Action

A temporary assignment is the placement of an employee in an established position for
a limited time to perform different duties and responsibilities. Postal Service policy
stipulates that a PS Form 1723, Assignment Order, signed by the supervisor or
manager, support temporary assignments.3 The form is valid for up to 180 days and
must be retained for 3 years from the date of the action.

OBJECTIVE, SCOPE, AND METHODOLOGY

The objective was to determine if headquarters bargaining and nonbargaining unit
employees were properly assigned to saved grade status (including indefinite protected
salary) and temporary assignments from October 1, 2007 through April 24, 2009.

To accomplish our objective, we reviewed applicable Postal Service policies,
regulations, and employee union agreements. We used the Postal Service’s Payroll
and Time and Attendance Collection Systems to determine there were 197 employees
in saved grade and indefinite protected salary status and 414 in higher-level temporary
assignments. These employees were physically located at Postal Service
Headquarters.4 We randomly tested 100 of the saved grade and indefinite protected
status employees and 133 of the temporary assignments. 5 We determined that 11 of
the 133 assignments were errors in that employees were not in temporary assignments.

2
  Publication 164, Compensation, Relocation Benefits, and Reinstatement Policies for Career Employees in
Transition: Q’s and A’s, June 2008; and Employee and Labor Relations Manual, Issue 19.2, Section 415, Pay
Administration Policy for Nonbargaining Unit Employees, and Section 420, Wage Administration Policy for Bargaining
Unit Employees, dated April 2008 and updated with Postal Bulletin revisions through May 7, 2009.
3
  Handbook F-21, Time and Attendance, Section 421, Higher Level, dated June 2002.
4
  We did not include headquarters employees assigned to field offices.
5
  The sample of saved grade and indefinite protected salary employees consisted of one bargaining and 99
nonbargaining employees. The temporary assignments consisted of 39 bargaining and 94 nonbargaining employees.




                                                        3
   Saved Grade Status and Temporary Assignments -
    Postal Service Headquarters                                                      HM-MA-09-001


   In addition, we could not locate supervisors for eight temporary assignments due to
   retirement or organizational changes. Due to time constraints we did not replace the 19
   employees from our universe and instead reduced our sample size to 114.

   We verified the employees’ salary status and temporary assignments with the
   responsible Postal Service officials and Human Capital Enterprise System and
   Employee Personnel Action History system records. To determine if the saved grade
   and indefinite protected salary status and temporary assignments were proper, we
   obtained PS Forms 50 and 1723 from headquarters officials and compared them to our
   random selections. We also interviewed employees’ managers and supervisors and
   Headquarters Office of Compensation officials, as well as Shared Services Center
   personnel.

   We conducted this review from March through December 2009 in accordance with the
   President’s Council on Integrity and Efficiency, Quality Standards for Inspections. We
   discussed our observations and conclusions with management officials on October 20,
   2009, and included their comments where appropriate.

   PRIOR AUDIT COVERAGE

   We identified one previous OIG report related to employees in saved grade status.


                          Report          Final Report   Monetary
     Report Title         Number              Date        Impact             Report Results
Fiscal Year (FY)       FF-AR-08-028     November 15,     $853,889   The Northern Ohio District
2007 Financial                          2007                        Human Resources office did not
Installation Audit -                                                monitor employees with saved
Cleveland Main                                                      grade provisions. As a result, the
Office Window                                                       audit team estimated the District
Service                                                             overpaid 190 employees.

                                                                    Management concurred with the
                                                                    recommendations to monitor
                                                                    employees in a saved grade
                                                                    status and remove ineligible
                                                                    employees.




                                                    4
Saved Grade Status and Temporary Assignments -
 Postal Service Headquarters                                                                        HM-MA-09-001


                                APPENDIX B: DETAILED ANALYSIS

Saved Grade Status Was Proper

Postal Service Headquarters managers, supervisors, and Shared Services Center
personnel complied with Postal Service policies and procedures when they placed and
monitored the 100 sampled employees on saved grade and indefinite protected salary
status. This resulted in no improper assignments.

Most Temporary Assignments Were Supported

Most headquarters managers and supervisors also followed Postal Service policies and
procedures when they completed and retained PS Forms 1723 to support temporary
assignments. Specifically, 74 of the 114 (65 percent) temporary assignments were
sufficiently supported with the proper forms.

The remaining 40 temporary assignments, however, were not sufficiently supported
because forms were lost or not completed.6 Managers and supervisors told us this
occurred because of organizational changes at headquarters or managers and
supervisors not fully understanding the requirements. As a result, we identified
unsupported, unrecoverable, questioned costs totaling $26,177. When projected over
the universe of employees (414), the costs are $67,629. See Appendix C for the
statistical sampling methodology.

During the review, we found that the Postal Inspection Service used its Resource
Management System to electronically manage and track temporary assignments. The
system allows managers and supervisors to consistently complete and maintain PS
Forms 1723. We believe this is something the Postal Service should consider to
enhance its ability to manage and track temporary assignments.




6
 Of the 40, 32 were missing (lost, not completed); five involved employees who retired and had their records purged
by the office and destroyed; one was done late; one was not filled out; and one was incomplete because it did not
cover all the hours at the higher level.




                                                         5
Saved Grade Status and Temporary Assignments -
 Postal Service Headquarters                                                                       HM-MA-09-001


             APPENDIX C: STATISTICAL SAMPLING METHODOLOGY FOR
                          TEMPORARY ASSIGNMENTS


Purpose of the Sampling

Our objective was to project the amount of potential cost savings for the universe of
headquarters bargaining and nonbargaining unit employees not properly assigned to
temporary assignments from October 1, 2007 through April 24, 2009.

Definition of the Audit Universe

The total audit universe consisted of 414 employees physically located at headquarters.
We extracted this information from the Postal Service’s payroll system.

Sample Design and Modifications

We randomly selected 133 of the 414 temporary assignments. We later reduced our
sample to 114 due to 11 errors (employees were not in temporary assignments) and our
inability to locate supervisors for eight temporary assignments. We calculated the
sample size of 114 for a one-sided confidence interval, at the 95 percent confidence
level.

Based on survey results, we found that 40 of the 114 temporary assignments were not
supported. This resulted in costs totaling $26,177. Using RAT-STATS we projected
over the universe of 414 employees an unsupported, unrecoverable, and questioned
cost of at least $67,629.7




7
 RAT-STATS is a package of statistical software tools designed to assist the user in selecting random samples and
evaluating the audit results.




                                                        6
Saved Grade Status and Temporary Assignments -
 Postal Service Headquarters                              HM-MA-09-001


                      APPENDIX D: MANAGEMENT’S COMMENTS




                                                 7
Saved Grade Status and Temporary Assignments -
 Postal Service Headquarters                                 HM-MA-09-001


             APPENDIX E: MANAGEMENT’S COMMENTS (CONTINUED)




                                                 8
